            Office Of Inspector General




September 29, 2005

ALFRED INIGUEZ
VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT: Audit Report – Office of Workers’ Compensation Programs’
         Schedule Award Payments to Postal Service Employees in the
         Pacific Area – Report II (Report Number HM-AR-05-011)

This report presents the results of our self-initiated review of the Department of Labor’s
(DOL) Office of Workers’ Compensation Programs (OWCP) Schedule Awards (Project
Number 04WG010HM001). Our objectives were to determine, for chargeback year1
(CBY) 2004, whether the Postal Service’s Pacific Area was overcharged for schedule
award payments and received credits or refunds for overpayments from the OWCP; and
whether federal schedule awards are comparable to schedule awards made by states
and selected private insurance companies. This report supplements our draft report to
DOL, OWCP Schedule Award Payments to Postal Service Employees in the Pacific
Area – Report I (Report Number HM-AR-05-DRAFT).

We used a statistical sample to project that in CBY 2004, the Postal Service was
overcharged about $291,200 and undercharged about $251,200 for schedule awards in
the Pacific Area. The overcharge is about 1.4 percent of the $20.6 million paid to Postal
Service employees in CBY 2004 in the Pacific Area. The over- and undercharges were
less than 1 percent of the amount paid to employees; however, they indicated that
OWCP over- and underpaid 26 percent of the Pacific Area employees who received
schedule award payments. Although the amounts are not significant compared to the
total schedule award payments, they highlight the fact that some employees did not
receive benefits they were entitled to, while others received more. The Postal Service
received a $200 credit from OWCP for the overcharges identified.

We also concluded that Federal Employees’ Compensation Act (FECA) schedule award
maximums are not comparable to state schedule award maximums. Finally, we could
not determine the extent to which private insurance companies’ schedule award
maximums were comparable to federal maximums because private companies
computed their awards differently.




1
 OWCP’s Chargeback System (CBS) is the mechanism by which the costs of compensation for work-related injuries
and death are billed annually to employing agencies. The chargeback billing period is from July 1 in one year to
June 30 the following year.

                                                        1
Office of Workers’ Compensation Programs’ Schedule                                         HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II

                                               Background
OWCP

OWCP adjudicates claims and pays compensation, medical, and death benefits for
injured federal workers, including Postal Service employees. OWCP pays these from
its Employees’ Compensation Fund, which federal agencies later reimburse through the
chargeback billing process. FECA pays workers' compensation benefits to civilian
employees, including Postal Service employees, for specified periods of time for the
permanent loss, or loss of use, of certain members, organs, and functions of the body.
Payment is for a specified number of days or weeks, depending on the severity of the
impairment. This compensation benefit is a schedule award.

Schedule Award

The schedule award compensation for proportionate periods of time is payable for
partial loss, or loss of use, of each member, organ, or function of the body beginning on
the date of maximum medical improvement.2 In addition, a schedule award can be paid
if the employee returns to work. However, employees may not receive wage-loss
compensation and schedule award payments concurrently for the same injury.

OWCP district medical advisors determine the percentage of permanent impairment
according to the American Medical Association’s Guide to the Evaluation of Permanent
Impairment. Title 5 of the United States Code (U.S.C.)3 defines the number of weeks
allotted for payment by body part or organ. The compensation is computed by
multiplying:

        •    The indicated number of weeks
        •    × the percentage of impairment
        •    × 66 ⅔ percent (for employees without dependents), or 75 percent (for
             employees with dependents) of the employee’s weekly base pay.

For example, a schedule award payment for a married employee earning a base pay of
$50,000 a year who loses an arm or the use of an arm (100 percent permanent
impairment) is computed by determining the rate of pay per week as follows:

        •    $50,000 ÷ 52 weeks = $961.54 per week.
        •    $961.54 per week × 75 percent = $721.16 per week.
        •    $721.16 per week, × 312 weeks4 × 100 percent = $225,000.
        •    $225,000 is the amount of the employee’s schedule award.

If an employee sustains a period of total disability during the award period, the
payments may be interrupted while the employee is on total disability, with the
2
  Maximum medical improvement is defined as a medical judgment that the condition has permanently stabilized.
3
  Part III, Subpart G, Chapter 81, Subchapter I, Section 8107, Compensation Schedule.
4
  As defined by Title 5, if the employee had a 50 percent permanent impairment, the number of weeks would be 156.


                                                        2
Office of Workers’ Compensation Programs’ Schedule                                              HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II

payments resuming after the employee is no longer on total disability. If an employee
dies while receiving a schedule award from causes unrelated to the injury, his or her
dependents are entitled to the balance of the award at the rate of 66 ⅔ percent.

Postal Service Schedule Award Payments

The Postal Service’s schedule award payments to employees represented over
42 percent of all schedule award payments for the federal government from CBYs 2001
to 2004, as shown in Table 1. Further, for the same period, the Postal Service’s
schedule award payments increased significantly more than all other federal agencies
combined. Specifically, the payment increased from $81 million to $108 million
(33 percent), while all other federal agencies’ combined payments increased from
$111 million to $131 million (18 percent).

                 Table 1. Postal Service’s Schedule Award Payments Compared to
                        Other Government Agencies for CBYs 2001 to 2004

                                              Schedule Award Payments
                   Postal Service             All Other Government Agencies       Government-      Postal Service’s
                            Percentage                         Percentage            wide           Percentage of
          Payments         Increase from      Payments        Increase from        Payments       Government-wide
  CBY     (millions)       Previous CBY        (millions)     Previous CBY         (millions)          Awards
  2004         $108                     14         $131                      7          $239                     45.1
  2003           94                      9          123                      6           217                     43.4
  2002           86                      6          116                      5           203                     42.6
  2001           81              ----------         111              ----------          192                     42.2
Source: OWCP deputy director, Division of Federal Employees’ Compensation (DFEC)

Postal Service officials did not know why the Postal Service’s schedule award payments
increased significantly more from CBY 2003 to 2004 than other agencies’ payments
during the same period. Two officials said Postal Service employees may have more
severe injuries than other federal employees because the agency has a larger number
of blue collar employees than other federal agencies. The OWCP national medical
director told us the reasons may be that the Postal Service had more cases than other
agencies, and some Postal Service employees had more than one schedule award.

Postal Service Workers’ Compensation Costs

The Postal Service was the largest participant in OWCP in CBY 2005, representing
about 46 percent of the total cases for the federal workforce that participated. It was
also the largest payee to OWCP, with approximately $818.2 million in payments for the
same year. This is about 35 percent of the $2.3 billion in total federal workers’
compensation payments. In addition to the $818.2 million, the Postal Service also paid
approximately $21.9 million in chargeback billing costs for the old Post Office




                                                          3
Office of Workers’ Compensation Programs’ Schedule                                          HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II

Department,5 and an administrative fee6 of $44.3 million. This brings the total
CBY 2005 costs to $884.4 million, as shown in Table 2.
                       Table 2. Postal Service Total Workers’ Compensation and
                                     Medical Costs for CBY 2005

                                                                            CBY 2005
                                     Type of Cost                          (in millions)
                        Postal Service workers’ compensation
                        and medical costs                                         $818.2

                        Post Office Department workers’
                        compensation and medical costs                               21.9

                        Administrative fee                                           44.3

                          Total                                                   $884.4
                       Source: DOL OWCP Chargeback Billing Summary


                           Objectives, Scope, and Methodology
We discuss our objectives, scope, and methodology in Appendix B in detail.

                                        Prior Audit Coverage
We did not identify any prior audits related to the objectives of this audit.

                                              Audit Results

Postal Service Over- and Undercharges

The Postal Service was overcharged about $291,200 and undercharged about
$251,200 for schedule awards in the Pacific Area, in CBY 2004. The over- and
undercharges represent 26 percent of the Pacific Area employees who received
schedule award payments. OWCP and the Postal Service should ensure employees
are paid the amounts authorized. This assurance would have prevented the payment of
approximately $64,608 by the Postal Service ($544 of funds put to better use and
$64,064 of unrecoverable costs), and $22,608 in potential costs to the Postal Service.
Specifically, at least $544 in payments was determined based on a percentage of the
projected overpayments, offset by a percentage of the projected underpayments. This
amount will be reported as funds put to better use in our Semiannual Report to

5
  The Post Office Department represented compensation claims incurred before the Postal Service reorganization in
1971. Under the Postal Reorganization Act of 1971, the Postal Service remained responsible for payment of all Post
Office Department workers' compensation claims incurred before July 1, 1971.
6
  Administrative fees represent the amount OWCP assesses for managing workers’ compensation claims. The
amount paid is approximately 5 percent of the Postal Service’s medical and compensation costs. The Postal
Service’s administrative fees increased 35 percent, from $32.9 million in CBY 2000 to $44.3 million in CBY 2005.

                                                        4
Office of Workers’ Compensation Programs’ Schedule                                           HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II

Congress (SARC). The Postal Service has received a $200 credit from OWCP for the
overcharges identified.

In addition, the Postal Service was assessed $64,064 that cannot be recovered. This
includes $14,560 in administrative fees assessed by DOL for the overcharges, and
$49,504 for those employees whose overpayments were less than $500. Because
OWCP procedures allow amounts less than $700 to be uncollected (written off), and
OWCP is not required to reimburse agencies for administrative fees assessed on
overpayments, these funds are unrecoverable and will also be reported as such in our
SARC.7

Further, if the identified underpayments and the respective administrative fees are paid,
the Postal Service will incur an additional cost of $22,608.8 These funds represent an
additional expense to the Postal Service and will be reported as such in our SARC.
(See Appendix C for the summary of monetary impact to the Postal Service.)

We used a statistical sample of 157 case files from a universe of 1,082 files to arrive at
the projections. The overcharge is about 1.4 percent of the $20.6 million paid to Postal
Service employees in CBY 2004 in the Pacific Area, and the undercharge is
approximately 1.2 percent of the amount paid. Although these amounts are not
significant compared to the total schedule award payments ($20.6 million), they
highlight the fact that some employees did not receive benefits they were entitled to,
while others received more.

Of the 157 case files reviewed, 84 employees who received schedule award payments
in the Pacific Area in CBY 2004 were paid more or less than the amounts authorized, as
follows:

     •   44 employees were overpaid.
     •   40 employees were underpaid.

See Appendices B and D for the methodology and statistical sampling and projections,
respectively.

Overpayments Identified

Of the 44 employees overpaid, 35 were overpaid $1.00 or more as shown in Table 3.9
The remaining 9 employees were overpaid less than a $1.00. Most of the
overpayments occurred in four Postal Service District Injury Compensation Offices in
the Pacific Area – Oakland, Sacramento, San Francisco, and Santa Rosa Districts (see

7
  The unrecoverable costs total $64,064 [$49,504 + $14,560].
8
  The administrative fee which will be assessed if the Postal Service pays the underpayments is $12,560 (5 percent of
$251,200). Also, $10,048 will be paid if the Postal Service pays the underpaid amount to those employees whose
underpayments were less than $500. The $12,560 + $10,048 = $22,608.
9
  Postal Service and DOL officials told us the overpayments of $500 or less may not be overpayments but rather
increases resulting from cost-of-living adjustments (COLAs).

                                                         5
    Office of Workers’ Compensation Programs’ Schedule                                             HM-AR-05-011
     Award Payments to Postal Service Employees in the
     Pacific Area – Report II

    the shaded rows in Table 3). The largest overpayment occurred in the Las Vegas
    District.
    Table 3: Number of Overpayments by Postal Service District Injury Compensation Offices

                                      Overpayments: Amounts Paid Over the Authorized Amounts
    Injury
 Compensation       $1 to    $50 to     $100 to    $500 to    $1,000 to    $5,000 to    $10,000 to    $15,000
   Offices         $49.99    $99.99     $499.99    $999.99    $4,999.99    $9,999.99    $14,999.99    and Over    Total
 Bakersfield                               2                                                                       2
 Honolulu            1         1                                                                                   2
 Las Vegas                                                                                               1         1
 Long Beach                                1                                                                       1
 Los Angeles                               1                                                                       1
 Oakland             1                     5                      1                                                7
 Phoenix                                   2                                                                       2
 Sacramento                                5                                                                       5
 San Diego                     1           1                                                                       2
 San Francisco                 1           2                                   1                                   4
 San Jose                                  1                                                                       1
 Santa Ana           1                     1                                                                       2
 Santa Barbara                 1                                                                                   1
 Santa Rosa                                3                                                                       3
 Van Nuys                                  1                                                                       1
    TOTAL            3         4           25         0           1            1               0         1         35
    Source: Schedule Award of Compensation Letters and OWCP Agency Query System Case
    Compensation Payment History

    Of the 44 employees overpaid, 3 received overpayments of more than $500, as shown
    in Table 4. These 3 overpayments totaled $33,346 and represented approximately
    83 percent of the $40,387 on which we based our projections. Further, 2 of the
    3 employees (Employees B and C) received $28,544 (86 percent) of the $33,346 in
    overpayments.

                         Table 4: Highest Three Overpayments, by Employee, Compared to
                                     Total Overpayments (Numbers Rounded)

                                        Amount                          Amount       Percentage of Total
                 Employee             Authorized     Amount Paid        Overpaid        Overpayments
             10
 Employee A                              $42,361           $47,163           $4,802            12
 Employee B                              $45,093           $54,777           $9,684            24
 Employee C                              $37,141           $56,001         $18,860             47
  Total for employees A, B, and C       $124,595          $157,941         $33,346             83
  Total for 41 other employees        $1,094,592        $1,101,633           $7,041            17
  Total for all 44 employees          $1,219,187        $1,259,574         $40,387            100
Sources: Postal Injury Compensation System (PICS),11 Schedule Award of Compensation Letters, and OWCP
Agency Query System Case Compensation Payment History




    10
      The employee repaid $200 in September 2004. According to the Pacific Area Injury Compensation manager, the
    $200 was credited to the Postal Service on June 11, 2005.
    11
      PICS is an Office of Inspector General (OIG) system that contains weekly medical costs and workers’
    compensation data from OWCP for each injured Postal Service employee.

                                                              6
Office of Workers’ Compensation Programs’ Schedule                                           HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II

A review of OWCP employee case file and payment records showed that Employee A’s
overpayment of $4,802 was the result of 2 periodic payments made after he received a
final lump sum payment. In the case of Employee B, OWCP paid him $9,684 in
4 periodic payments, also after a lump sum was paid. Finally, Employee C received
10 periodic payments totaling $18,860 after receiving a lump sum payment.

The remaining 41 employees received a total of $7,041 in overpayments, which
represented less than $500 each. Since OWCP procedures12 allow amounts less than
$700 to be uncollected (written off) because the costs of pursuing collection may
exceed the amount to be repaid, these amounts will not be recovered.

DOL policy states an employee can receive a schedule award in a lump-sum payment13
or periodic payments spread out over time. In addition, at the time the three employees
received their lump-sum schedule award payments, procedures required OWCP
personnel to manually complete DOL Form Compensation Act (CA)-2514 and submit it
to the Automated Compensation Payment System (ACPS) to stop the periodic
payments.

However, the OWCP assistant director, San Francisco District, said OWCP personnel
did not submit the required Forms CA-25. As a result, Postal Service employees were
overpaid, and the Postal Service was overcharged. Further, the Postal Service was
assessed an administrative fee, which is unrecoverable. The assistant district director
did not know why OWCP personnel did not submit the forms.

The OWCP deputy director, DFEC, stated the Integrated Federal Employees’
Compensation System (iFECS) replaced ACPS in February 2005. He told us iFECS
eliminated the use of the CA-25; and instead, the information is now entered directly
into the system. However, the deputy director told us iFECS does not have an
automatic control to stop periodic payments when the lump sum option is selected. He
said a control will be added to the list of iFECS enhancements to be made in the future,
probably in fiscal year 2006.

In addition to DOL employees not following policy, some Postal Service employees
were not following their policy which should have identified the overpayments.
Specifically, we interviewed eight Pacific Area District Injury Compensation managers15



12
   OWCP Procedure Manual, Section 6-0200-8, Administrative Termination of Debt Collection (Overpayments Less
Than $700).
13
   Federal Register, 20 Code of Federal Regulations (CFR), Part 10, Section 10.422(b), states that a lump-sum
payment may be made to an employee entitled to a schedule award under 5 U.S.C., Section 8107, when OWCP
determines that the payment is in the employee’s best interest. Lump-sum payments of schedule awards are
generally considered in the employee’s best interest only if the employee does not rely on compensation payments
as a substitute for lost wages (that is, the employee is working or is receiving annuity payments). An employee has
no absolute right to a lump-sum payment of benefits under 5 U.S.C. 8107.
14
   DOL Form CA-25, ACPS Periodic Roll Payment 510-01.
15
   We met with Postal Service Injury Compensation managers in the Arizona, Bay-Valley, Las Vegas, Los Angeles,
Sacramento, San Diego, Santa Ana, and Van Nuys Districts.

                                                         7
Office of Workers’ Compensation Programs’ Schedule                                          HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II

and five16 of them told us they were not reviewing chargeback reports to detect
overpayments of schedule awards. Postal Service policy17 requires the Injury
Compensation Office to review chargeback reports on a monthly basis, and immediately
notify OWCP of any overpayment. It is the responsibility of the Pacific Area Injury
Compensation manager to ensure this occurs.

District Injury Compensation managers told us, however, they were not reviewing the
chargeback reports because of time constraints and/or concerns about the accuracy
and reliability of the chargeback data. They said prior to the implementation of the
Postal Service’s new Injury Compensation Performance Analysis System (ICPAS) in
May 2003, district-wide chargeback reports were generated in the Human Resources
Information System, and were reviewed on a monthly basis. However, ICPAS
generated chargeback reports for each finance number, and some districts had
hundreds of finance numbers. As a result, district personnel did not have time to run
the chargeback report for all the finance numbers.

The Pacific Area Injury Compensation manager told us he was not aware that
managers were not reviewing the chargeback reports. He said their noncompliance
with policy is an indication he has not done a sufficient job advising them it is a
requirement to review chargeback reports. He also told us, however, this was corrected
in September 2004, when Postal Service Headquarters issued an update to ICPAS
allowing district-wide chargeback reports to be generated. He said the update to the
system will enable them to comply with the requirement to review chargeback reports.

Corrective Actions

Before our review, the OWCP notified Employees A and B they were overpaid, and
asked them to return their overpayments of $4,802 and $9,684, respectively (a total of
$14,486 total) to OWCP. OWCP also issued a letter dated January 24, 2005, to
Employee C informing him of the preliminary finding that he was overpaid $18,860. The
letter advised him of his right to submit evidence or arguments that he believes will
affect this preliminary finding.

Other corrective actions are discussed in our separate report to DOL,18 where we
recommended the assistant secretary, Employment Standards Administration, direct
appropriate officials to:

    •   Program iFECS, as soon as possible to automatically reject periodic payments
        when the lump-sum payment option has been selected.



16
   The five managers who were not reviewing reports at the time of our initial interviews (between November 2004 and
January 2005) were from the Bay Valley, Los Angeles, Las Vegas, Van Nuys, and San Diego Districts.
17
   Handbook EL-505, Injury Compensation, Section 13.18, Recovering Compensation Overpayment, December 1995.
18
   Office of Workers’ Compensation Programs’ Schedule Award Payments to Postal Service Employees in the Pacific
Area – Report I (Report Number HM-AR-05-DRAFT).

                                                         8
   Office of Workers’ Compensation Programs’ Schedule                                  HM-AR-05-011
    Award Payments to Postal Service Employees in the
    Pacific Area – Report II


       •   Reexamine schedule award case files from CBY 2003 to date to ensure that
           periodic payments have been deleted for claimants (Postal Service employees)
           who selected the lump-sum payment option. We also suggested the assistant
           secretary consider applying this recommendation to all claimants, regardless of
           the federal agency that employed them.

   Underpayments Identified

   Of the 40 underpaid employees, 16 were underpaid $1.00 or more as shown in Table 5.
   Most of the underpayments occurred in five Postal Service District Injury Compensation
   Offices in the Pacific Area – Fresno, Oakland, Sacramento, San Diego, and San Jose
   (see the shaded rows in Table 5). The largest three underpayments occurred in the
   Phoenix and San Jose Districts.

       Table 5: Number of Underpayments by Postal Service District Injury Compensation Offices

   Injury                     Underpayments: Amounts Paid Under the Authorized Amounts
Compensation     $1 to   $50 to   $100 to   $500 to  $1,000 to    $5,000 to    $10,000 to    $15,000
  Offices       $49.99   $99.99 $499.99 $999.99 $4,999.99         $9,999.99    $14,999.99    and Over   Total
Fresno             1                          1                                                           2
Long Beach                           1                                                                    1
Oakland                              2                                                                    2
Phoenix                                                                                         1         1
Sacramento        1                            1                                                          2
San Diego         1                  3                                                                    4
San Francisco     1                                                                                       1
San Jose                                                              1            1                      2
Santa Rosa                           1                                                                    1
   TOTAL          4        0         7         2          0           1            1            1        16
   Source: Schedule Award of Compensation Letters and OWCP Agency Query System Case
   Compensation Payment History

   Of the 40 underpaid employees, 5 were underpaid by $500 or more, as shown in
   Table 6. These 5 underpayments totaled $47,965 (96 percent) of the $49,804 in
   underpayments on which we based our projections. Further, 2 of the 5 employees
   (Employees D and E) received $37,592 (78 percent) of the $47,965 in underpayments.




                                                     9
  Office of Workers’ Compensation Programs’ Schedule                                              HM-AR-05-011
   Award Payments to Postal Service Employees in the
   Pacific Area – Report II



           Table 6: Top Five Underpayments by Employee Compared to Total Underpayments

                                                                                Percentage of the
                                     Amount        Amount        Amount           Total Amount
                Employee            Authorized      Paid        Underpaid          Underpaid
 Employee D                           $28,216         $2,521       ($25,695)                     52
 Employee E                           $55,032       $43,135        ($11,897)                     24
 Employee F                           $42,769       $33,637         ($9,132)                     18
 6Employee G                          $40,891       $40,268           ($623)                      1
 Employee H                           $35,291       $34,673           ($618)                      1
   Total for employees D through H   $202,199      $154,234        ($47,965)                     96
   Total for 35 other employees      $743,000      $741,161         ($1,839)                      4
   Total for all employees           $945,199      $895,395        ($49,804)                    100
Sources: PICS, Schedule Award of Compensation Letters, and OWCP Agency Query System Case
Compensation Payment History

  Employee D’s schedule award was interrupted19 from August 18, 2003, to April 25,
  2004, to pay temporary total disability20 payments. When the disability payments
  ceased in April 2004, schedule award payments should have resumed; however, the
  claims examiner forgot to resume the payments. The assistant district director said the
  new system, iFECS, will allow claims examiners to manually input reminders. We noted
  this will also require the claims examiners to remember to input the reminder.

  In addition to a claims examiner not resuming award payments for Employee D, an
  examiner computed Employee E’s schedule award incorrectly. This occurred because
  the claims examiner used the incorrect number when multiplying the number of days
  (633.36) by 75 percent for a compensation rate of $475.02 per week, instead of
  multiplying the base pay rate ($806.71) by 75 percent for a compensation rate of
  $605.03. In addition, the amount was not properly certified or verified by other claims
  examiners. This resulted in an underpayment of $11,897.40.

  OWCP policy21 requires claims examiners22 to compute and certify schedule award
  payments using DOL Form CA-203.23 The policy also states that after the initial claims
  examiner computes the schedule award and a second examiner certifies it, a third
  examiner must verify the amount keyed in to ACPS. According to the OWCP deputy
  director, DFEC, before a DOL letter is sent to claimants advising them of the amount(s)
  they will receive, a senior claims examiner or a journey-level claims examiner must


  19
     If an employee sustains a period of total disability during the award period, the payments may be interrupted while
  the employee is on total disability, with the payments resuming after the employee is no longer on total disability.
  20
     Federal Register, 20 CFR, Part 10, Section 10.400(b), states, "Temporary Total Disability is defined as the inability
  to return to the position held at the time of injury or earn equivalent wages, or to perform other gainful employment,
  due to the work-related injury."
  21
     FECA Procedure Manual 2-0901-3, Responsibilities, (Part b) Certification.
  22
     The amount of the schedule award payment dictates which level must certify the payment. For example, a
  journey-level claims examiner can certify up to $14,000; a senior claims examiner can certify payments up to
  $50,000; and a supervisory-level claims examiner can certify payments greater than $50,000.
  23
     DOL Form CA-203, ACPS Schedule Award Payment – 510-09.

                                                             10
Office of Workers’ Compensation Programs’ Schedule                                                HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II

verify the letter for correctness. Additionally, OWCP policy24 states that if a recurrent
pay rate25 is established, the claimant is entitled to that rate for the balance of the
schedule award.

Information in ACPS and Employee E’s Schedule Award Compensation Letter showed
that neither the claims examiner who verified the information input into ACPS, nor the
senior claims examiner who reviewed the letter, identified the inaccurate information in
ACPS, or the letter. Specifically, the claims examiner completed the DOL Form CA-203
on March 13, 2003; the verifier reviewed the information in ACPS on March 14, 2003;
and the senior claims examiner reviewed the letter before it was sent to the claimant on
March 17, 2003.

The assistant district director told us that because the certification process for schedule
award payments involves human beings, human error is always possible. She said the
district tries to minimize human error by having senior claims examiners, and in some
cases journey-level claims examiners, certify initial payment computations. She said
she knows of no automated process that can eliminate the claims examiner.

According to the deputy director, schedule award payments are no longer carried over
from a DOL Form CA-203 and entered into a system. Rather, the information is
entered directly into the schedule award computation screen (the equivalent of a DOL
Form CA-203) and then forwarded for certification. However, the deputy director said
OWCP must rely on the claims examiner’s review of the payment information and the
certifier’s verification that the information entered is correct. So, while there is less
chance of erroneously entering a figure from a correct calculation, the calculation must
still be accurate to ensure appropriate compensation payment.

Corrective Actions

Based on our work, OWCP officials issued payments to Employees D through H for
$36,908 of the $47,965 for the underpayments we identified. Employee D was paid
$14,453, which is $11,242 less than the $25,695 we identified, because of a revised
percentage of impairment.

Employees E, F, and G were also paid the amounts we identified ($11,897, $9,132, and
$623, respectively). Employee H received $803, which was $185 more than the $618
we identified because the employee was also underpaid for total disability
compensation.26

24
   FECA Procedure Manual 2-0808-7, Payment of Schedule Awards, (Part a), Computing Awards, Section 3.
25
   The recurrent pay rate is the rate a claimant is entitled to when or if his or her disability recurs. Claimants are
entitled to a pay rate for compensation either at the time of the initial injury or when the disability recurs. A recurrence
of disability means an inability to work after an employee has returned to work, caused by a spontaneous change in a
medical condition that resulted from a previous injury or illness without an intervening injury, or new exposure to the
work environment that caused the illness.
26
   A review of the employee’s case file indicated the pay rate initially used was incorrect. As a result, the employee
was underpaid for her schedule award payment, as well as her total disability (or regular workers’ compensation)
payment.

                                                             11
Office of Workers’ Compensation Programs’ Schedule                                        HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II

The Postal Service Pacific Area also took corrective action based on our work.
Specifically, the area implemented a Schedule Award Verification Standard Operating
Procedure (SOP) – effective August 26, 2005. The SOP was signed by the Pacific Area
Injury Compensation manager and directed all Pacific Area District Injury Compensation
managers to review schedule award payment data for accuracy. Specifically, the SOP
requires district injury compensation managers at least once each quarter to:

     •   Build/create a Schedule Award Report in the ICPAS.

     •   Review the Schedule Award Reports to ensure employees are paid the amounts
         authorized (compare the total amounts paid with the amounts authorized or the
         total amount of the schedule award).

Further, the SOP stated that Postal Service Headquarters is considering a modification
to the Schedule Award Report, to include a column displaying the total amount of the
award paid to date. Officials said this would facilitate the identification of over- and
underpayments.

Other corrective actions are included in our separate report to DOL,27 where we
recommended the assistant secretary, Employment Standards Administration direct the
director, OWCP:

     •   To program iFECS to allow the claims verifier and senior claims examiner
         to confirm the accuracy of the information input on the automated DOL
         Form CA-203, by the claims examiner.

     •   To program iFECS to automatically remind claims examiners to pay the
         remaining balance of a schedule award at the recurrent pay rate when an award
         is interrupted to pay temporary total disability.

     •   That until iFECS is programmed for verification of accurate information on the
         DOL Form CA-203, direct the verifier and senior claims examiner to use a
         computerized spreadsheet (such as Microsoft Excel28) to confirm the accuracy of
         the information on the DOL Form CA-203.

In addition, we recommended the Director, OWCP, instruct the OWCP Director,
San Francisco District to:

     •   Reexamine schedule award case files from CBY 2003 to date to verify that award
         calculations are accurate, and ensure that claimants (Postal Service employees


27
   Office of Workers’ Compensation Programs’ Schedule Award Payments to Postal Service Employees in the Pacific
Area – Report I (Report Number HM-AR-05-DRAFT).
28
   Microsoft Excel is a spreadsheet program from the Microsoft Office suite of productivity tools for Windows and
Macintosh.

                                                        12
Office of Workers’ Compensation Programs’ Schedule                         HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II

            whose case files are managed in the San Francisco District) are paid at the
            correct weekly pay rate.

       •    Reexamine schedule award case files from CBY 2003 to date to verify, for those
            claimants (Postal Service employees whose case files are managed in the
            San Francisco District) whose awards were interrupted, that the remaining
            balance of the schedule award is paid at the correct pay rate.

Credits and Refunds Need to be Recovered

As of June 11, 2005, the Postal Service received a $200 credit from OWCP, of the
$33,346 in overcharges we identified. Postal Service officials said they were unaware
of the overpayments and are identifying the overcharges.

An OWCP official stated that credits for overpayments are posted to the appropriate
agency’s account when the money is received from the employee, not when the
overpayment is identified. This is also true for underpayments. The official stated that
where we identified underpayments, the Postal Service will be charged for payments
made to employees after OWCP makes the payment, not as of the date the
underpayment was identified.

Federal Schedule Award Comparisons With States

States also make schedule award payments to employees for partial loss, or loss of
use, of a member, organ, or function of the body. We compared states’ schedule award
maximums to the federal government’s schedule award maximums to determine
whether states’ maximums were about the same, higher, or lower than the federal
maximums. We concluded that because states’ schedule award maximums are
substantially lower than the federal government’s schedule award maximums, federal
maximums are not comparable to state maximums.

Federal Schedule Award Maximums Are Higher Than States’ Award Maximums

For several reasons, federal schedule award maximums are higher than states’
schedule award maximums:

        •    Unlike federal schedule awards, states take a percentage of an employee’s
             average salary to determine the amount of a schedule award (compensation
             rate), instead of using the employee’s actual salary.

        •    State workers’ compensation acts do not include a COLA29 in the amount of the
             schedule award payment, as federal schedule awards do.



29
     The COLA allows for the increase in living costs from year to year.

                                                             13
        Office of Workers’ Compensation Programs’ Schedule                                               HM-AR-05-011
         Award Payments to Postal Service Employees in the
         Pacific Area – Report II


                •    All states apply a single percentage, regardless of the employee’s dependent
                     status, while federal employees with dependents receive 75 percent of their
                     salary and those without dependents receive 66 ⅔ percent.

        In addition, some states’ maximums are established for fewer weeks than federal
        maximums. In cases where a state’s number of weeks is the same as the federal
        schedule awards, the states have a lower maximum benefit. We believe this is because
        the federal schedule award maximum benefit allowed is equivalent to the General
        Schedule (GS)-15 salary level. The GS-15 maximum level is established so that if
        federal employees at that salary level become injured, they can be compensated at a
        rate similar to their pay. However, few injured Postal Service employees’ salaries are at
        the GS-15 level.

        Using information from a study conducted by the U.S. Chamber of Commerce,30 we
        selected six states with the highest schedule award maximums for three selected body
        parts (arm at shoulder, leg at hip, and foot) and compared them to the federal schedule
        award maximums for the same body parts. As shown in Table 7, the federal maximums
        are significantly higher. For example, the federal maximum for the leg at hip is
        $141,000 more than the highest state maximum (Illinois). The federal maximum is
        $280,000 more than New Hampshire’s for the same body part. See Appendix E for a
        complete comparison of all the states’ maximums, as well as for additional scheduled
        injuries.

                                Table 7: Federal Schedule Awards Compared to the Six States
                             With the Highest Schedule Award Maximums by Selected Body Parts

                                                                                                                               Schedule
                              Schedule Award                                  Schedule Award                                    Award
       Jurisdiction           Arm at Shoulder             Jurisdiction          Leg at Hip               Jurisdiction            Foot
 Federal                             $466,302               Federal                 $430,433               Federal              $306,384
 Illinois                            $315,597       Illinois                        $289,297       District of Columbia         $170,376
 Iowa                                $269,750       Iowa                            $237,380       Illinois                     $163,058
 District of Columbia                $258,884       District of Columbia            $238,969       Iowa                         $161,880
 New Hampshire                       $224,595       Hawaii                          $179,136       Hawaii                       $127,510
 Hawaii                              $194,064       New Jersey                      $154,035       New Hampshire                $104,811
 North Carolina                      $168,960       New Hampshire                   $149,730       North Carolina               $101,376
Source: Analysis of Workers' Compensation Laws 2005, U.S. Chamber of Commerce Statistics and Research Center

        Few Postal Service Employees Received the Maximum Schedule Award

        Although federal schedule award maximums are significantly higher than the states’,
        only a small percentage of Postal Service employees receive the maximum schedule
        award amount. As shown in Table 8, the number of Postal Service employees who
        received the maximum schedule award payments (or had 100 percent of disability),31


        30
             Analysis of Workers’ Compensation Laws 2005, U.S. Chamber of Commerce Statistics and Research Center.
        31
             A 100 percent of disability refers to a 100 percent loss, or loss of use, as a result of the employee’s injury.

                                                                     14
 Office of Workers’ Compensation Programs’ Schedule                                    HM-AR-05-011
  Award Payments to Postal Service Employees in the
  Pacific Area – Report II

 was less than 1 percent of the total number of employees who received schedule
 awards and less than 1 percent of the total amount of schedule award payments.

                Table 8: Analysis of Postal Service Employees With 100 Percent Disability
                           and Receiving Federal Schedule Award Maximums

                                                  Percentage                         Total      Percentage of
                     Cases With                    of Cases                      Payments for   Payments for
           Total      Less Than     Cases With        With                        Cases With     Cases With
         Number      100 Percent    100 Percent   100 Percent                    100 Percent     100 Percent
 CBY     of Cases      Disability    Disability    Disability   Total Payments     Disability     Disability
 2004        8,314         8,283        31            .37         $104,305,633       $612,985        .59
 2003        7,827         7,800        27            .34          $96,393,565       $495,104        .51
 2002        8,286         8,253        33            .40          $88,034,616       $529,882        .60
 2001        6,761         6,732        29            .43          $93,542,945       $633,072        .68
 Total      31,188        31,068        120           .38         $382,276,759     $2,271,043        .59
Source: PICS

 Legislative Matters Under Consideration

 Changes to the FECA Act may slow the Postal Service’s rising OWCP costs. According
 to a March 14, 2005, draft DOL FECA Amendments of 2005, for any injury occurring on
 or after the date of enactment, and for any new claim for a period of disability
 commencing on or after the date of enactment, the basic compensation rate will be
 70 percent of the basic monthly pay of a GS-11, Step 3, rather than in proportion to the
 employee’s salary.

 Further, employees will not have increased entitlement to augmented compensation on
 the basis of dependents. All claimants, whether or not they have dependents, will
 receive 70 percent of their monthly pay. We are encouraged by the potential changes
 to FECA and believe the changes will decrease FECA schedule award payments.

 Since the Pacific Area took immediate corrective actions, we have no
 recommendations.

 Management’s Comments

 Management reviewed the report and stated they are in agreement with the findings
 and monetary impact identified. Management also stated they will continue to ensure
 the agreed upon actions are completed. Further, management stated they appreciated
 the cooperation and courtesies afforded to their areas and staffs by the audit team, and
 they thanked the OIG for the opportunity to comment. Management’s comments, in
 their entirety, are included in Appendix F of this report.

 Evaluation of Management’s Comments

 Management’s comments are responsive to our findings and identified monetary
 impact.


                                                         15
Office of Workers’ Compensation Programs’ Schedule                    HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II

We appreciate the cooperation and courtesies provided by your staff. If you have
questions or need additional information, please contact Chris Nicoloff, Director, Human
Capital, or me at (703) 248-2300.


/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc:   Anthony J. Vegliante
      DeWitt O. Harris
      Ronald E. Henderson
      Gerald S. Sanchez
      Gary A. Emich
      Steven R. Phelps




                                                 16
Office of Workers’ Compensation Programs’ Schedule                 HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II


                                         APPENDIX A

                                     ABBREVIATIONS
ACPS           Automated Compensation Payment System
ACS            Affiliated Computer Services, Inc.
CA             Compensation Act
CBS            Chargeback System
CBY            Chargeback Year
CFR            Code of Federal Regulations
CMF            Case Management File
CPB            Central Bill Processing System
COLA           Cost-of-Living Adjustment
DFEC           Division of Federal Employees’ Compensation
DMS            Debt Management System
DOL            Department of Labor
FECA           Federal Employees’ Compensation Act
FECS           Federal Employees’ Compensation System
GS             General Schedule
ICPAS          Injury Compensation Performance Analysis System
iFECS          Integrated Federal Employees’ Compensation System
OIG            Office of Inspector General
OWCP           Office of Workers' Compensation Programs
PICS           Postal Injury Compensation System
SARC           Semiannual Report to Congress
SOP            Standard Operating Procedure
U.S.C.         United States Code




                                                 17
Office of Workers’ Compensation Programs’ Schedule                                      HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II


                                               APPENDIX B

                       OBJECTIVES, SCOPE AND METHODOLOGY
Our objectives were to determine whether the Postal Service’s Pacific Area was
overcharged for schedule award payments in CBY 2004 and received credits or refunds
for overpayments from DOL’s OWCP, and whether federal schedule awards are
comparable to states’ and selected private insurance companies’ schedule awards.

To accomplish our objectives, we reviewed and analyzed schedule award payments
extracted from PICS for CBYs 2001 to 2004. We also reviewed Postal Service and
OWCP policies and procedures and interviewed both Postal Service and OWCP
officials.

To determine whether the Postal Service was overcharged for schedule award
payments, we obtained a universe of cases where at least one schedule award
payment was made in CBY 2004 in the Pacific Area. This resulted in a universe of
1,082 cases at the OWCP District Office in San Francisco, California. We selected a
statistical sample of 185 cases from the 1,082. Initially, we were to review 125 sample
cases, with an additional 60 sample cases if more than 1 error was noted. However,
because of the time constraints imposed by OWCP (other agencies were visiting at the
same time as our team), the projected OWCP resources needed to obtain the cases for
our review, and in the interest of efficiency, we asked OWCP for all 185 case files,
regardless of the projected errors.

Of the 185 case files requested, we reviewed a total of 157 case files. Each of the case
files represented an employee. Specifically, 28 files were not reviewed for the following
reasons:

       •   Six (6) case files could not be provided by the San Francisco OWCP District
           Office because they were at the OWCP National Office in the appeals process,
           and thus were not available to us.
       •   Twenty two (22) case files showed that the period of award had not yet ended at
           the time of our review and thus the employees were currently underpaid. As a
           result, these employees may still receive payments.

To determine whether OWCP overcharged the Postal Service through the chargeback
process for schedule award payments, we compared the authorized schedule award
amount to the amount actually paid to the employee. We based the authorized amount
on information in the Schedule Award of Compensation Letter sent to the employee,
and we obtained the amount paid from OWCP’s Agency Query System Case
Compensation Payment History screen.32


32
     OWCP provided copies of the Agency Query System Case Compensation Payment History page for the 185 cases.

                                                        18
Office of Workers’ Compensation Programs’ Schedule                   HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II

We discussed overpayments with officials in the OWCP San Francisco Office to ensure
that the overpayments actually occurred. If an overpayment actually occurred, we
determined, through discussions with OWCP officials, whether OWCP was aware of the
overpayments, and if so, what corrective actions had been taken.

To determine whether the Postal Service received credits or refunds for overcharges
from OWCP, we met with Postal Service officials in the Pacific Area and Injury
Compensation managers in the Arizona, Bay-Valley, Las Vegas, Los Angeles,
Sacramento, San Diego, Santa Ana, and Van Nuys Districts to determine whether they
were aware of the overpayments; if they were, whether they had taken steps to obtain a
refund or credit; and whether credits or refunds have been received. We also
determined, through interviews and reviews of policies, which agency (the Postal
Service or OWCP) was responsible for identifying the overpayments.

To determine whether federal schedule award maximums were comparable to state
maximums, and selected private insurance companies’ schedule awards, we reviewed
independent studies and interviewed state officials and an insurance broker. We also
contacted the U.S. Chamber of Commerce and obtained permission to reproduce a
chart comparing federal schedule awards to states’ schedule awards. In addition, we
obtained PICS data showing the number of Postal Service employees receiving
maximum schedule awards (100 percent impairment).

We could not determine the extent to which private insurance companies’ schedule
award maximums were comparable to federal maximums because private companies
computed their maximums differently.

This audit was conducted from August 2004 through September 2005 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as were considered necessary under the circumstances. We
discussed our observations and conclusions with appropriate OWCP and Postal Service
management officials and included their comments, where appropriate.

Data Reliability Testing

For the case files we requested, we tested the data to determine whether the records
were reliable. We compared data for specific fields extracted from PICS (DOL case
number, payee’s name, date of birth, Social Security number, payee’s date of injury,
payee’s percent of disability, and payee’s weeks of compensation) to the information on
the Schedule Award of Compensation Letters. Of the 179 case files we reviewed, in
7 cases (3.9 percent), PICS data did not match the Schedule Award of Compensation
Letter (see the following table). The purpose of our review was to determine whether
overpayments occurred, and the data that did not match in the 7 cases was not
significant to meet our objectives.




                                                 19
Office of Workers’ Compensation Programs’ Schedule                             HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II



        Sample                     Description of Data on Schedule Award of
        Number                   Compensation Letters that Did Not Match PICS
            72          Percentage of disability did not match PICS data
            79          Percentage of disability did not match PICS data
            87          Weeks of compensation showed days, rather than weeks
            94          Percentage of disability did not match PICS data
           102          Percentage of disability did not match PICS data
           105          Percentage of disability did not match PICS data
           108          Weeks of compensation showed days, rather than weeks

Independent Service Auditor’s Report

We also reviewed the results of an independent service auditor’s report of DOL’s
OWCP. Specifically, DOL’s OIG contracted with M.D. Oppenheim & Company, PC, to
review the Special Benefits Fund (the Fund). The report was, titled Special Reports
Relating to the FECA Special Benefit Fund March 31, 2004, and September 30, 2004.

The purpose of the audit was to examine the controls of the DFEC and Affiliated
Computer Services, Inc. (ACS) State Healthcare, an independent service organization
that provides medical bill processing services to DFEC for users of the FECA Special
Benefit Fund.

The Federal Employees’ Compensation System (FECS) is the electronic data
processing system for FECA benefits. The FECS supports DOL’s general ledger. The
FECS computer system consists of the following subsystems:

•      Case Management File (CMF) – CMF records the receipt of claims for FECA
       benefits and the steps taken to adjudicate those claims.

•      ACPS – ACPS processes the payment of weekly, monthly, and supplementary
       (lump sum) benefits to claimants. ACPS interfaces with CMF to ensure that a valid
       case number supports an approved claim.

•      Central Bill Processing System (CPB) – CPB provides files to DFEC that are used to
       update the CMF and the CBS. CPB is part of FECS.33

•      CBS – or the Intra-Governmental Accounts Receivable System, produces an
       accurate, complete, and detailed chargeback billing list, used to bill the appropriate
       federal agencies annually for benefit payments made on their behalf.

•      Debt Management System (DMS) – DMS records and tracks accounts receivable as
       a result of overpayments to claimants, reimbursements from third parties, and cash
       received from the public.

33
     CPB is maintained by ACS.

                                                  20
Office of Workers’ Compensation Programs’ Schedule                      HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II



Independent Service Audit Report Results

The audit issued an unqualified opinion on the Actuarial Liability, Net
Intra-Governmental Accounts Receivable, and Total Benefit Expense of the Fund.
Agreed-upon procedures were performed on the Schedules of Actuarial Liability, Net
Intra-Governmental Accounts Receivable, and Total Benefit Expense of the Fund.

However, the audit issued a qualified opinion on the effectiveness of OWCP controls
over FECS because controls failed to ensure periodic reviews of medical evidence to
support continuing eligibility, to ensure that medical bill payments were paid accurately,
and to restrict user access.

Independent Service Auditor’s Tests of General and Application Controls

The independent service auditor’s report disclosed the following control deficiencies,
which resulted in a qualified opinion:

•   DFEC asserted it had controls in place that require a review of medical evidence
    annually or every two or three years, depending on the type of compensation paid.
    However, the service auditor found that a significant number of case files contained
    no current medical evidence, as required by the DFEC policy.

•   DFEC asserted it had controls in place to correctly and completely enter bills into the
    CBP system, to pay medical bills in the correct amount, and to review the accuracy
    of medical bill payments. However, the service auditor found a significant number of
    duplicate and incorrect payments occurred.

•   DFEC asserted it had controls in place to restrict access to authorized users of
    ACPS and to logically segregate incompatible functions. However, the service
    auditor noted that access request and review procedures were not consistently
    followed, and users could perform incompatible functions.

The service auditor’s report stated that transaction processing controls for
compensation and medical benefit payments were tested in the areas of case creation,
initial eligibility, file maintenance, continuing eligibility-medical evidence, continuing
eligibility-earnings information, accuracy of compensation payments, new schedule
awards, medical bill payment processing, and third party settlements.




                                                 21
Office of Workers’ Compensation Programs’ Schedule                               HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II

We limited our highlights to new schedule awards.

           New Schedule Awards                 Tests of Described Controls        Results of Tests
 Controls provided reasonable assurance    For 50 judgmentally selected cases,    No exceptions
 that claimants had reached maximum        case files were reviewed to ensure     were noted.
 medical improvement before receiving a    that medical evidence supported the
 schedule award, medical evidence was      impairment or disability.
 obtained, and medical evidence stated
 the percentage of impairment.

Based on our data reliability testing and the independent service auditor’s results, we
concluded the data was sufficiently reliable to meet the objectives.




                                                 22
  Office of Workers’ Compensation Programs’ Schedule                                            HM-AR-05-011
   Award Payments to Postal Service Employees in the
   Pacific Area – Report II


                                                  APPENDIX C

        SUMMARY OF MONETARY IMPACT TO THE POSTAL SERVICE
                                                                                                 Potential Additional
                                                 Funds Put to   Unrecoverable                   Expense to the Postal
                                                 Better Use34      Costs35                            Service36
                                                   Overpayments
Overpayments – 83 percent of projected
                                                                            ---------                   ---------
amount - $291,200 (already paid)                    $241,696.00
Overpayments less than $500 –
17 percent of projected amount (already                    ---------                                    ---------
paid)                                                                         $49,504.00
                                                   Underpayments
Underpayments – 96 percent of
projected amount - $251,200 (OWCP
                                                                            ---------                   ---------
has repaid employees identified in
sample.)                                          ($241,152.00)
Underpayments less than $500 –
                                                           ---------        ---------
4 percent of projected amount                                                                                ($10,048.00)
                                                 Administrative Fees
Administrative fees assessed for
overpayments – 5 percent of total                    ---------                                          ---------
projected amount (already paid)                                               $14,560.00
Administrative fees to be assessed if
underpayments are paid – 5 percent of                ---------                      ---------
total projected amount                                                                                       ($12,560.00)
  Total                                                  $544.00              $64,064.00                     ($22,608.00)
  Notes:
  Overpayments
  •   In the sample, 44 employees received overpayments totaling $40,387. Of the 44 employees overpaid,
      3 received overpayments above $500; and the remaining 41 received overpayments under $500. The
      3 employees' overpayments represented 83 percent of the $40,387 we based our projections on. The remaining
      41 employees’ overpayments represented 17 percent.
  •   Above, we show $241,696 - which is 83 percent of the $291,200 [projected amount]. We show $49,504 –
      17 percent of the $291,200 [projected amount].

  Underpayments
  •  In the sample, 40 employees received underpayments totaling $49,804. Of the 40 employees underpaid,
     5 received underpayments above $500; and the remaining 35 received underpayments under $500. The
     5 employees' underpayments totaled $47,965 and represented 96 percent of the $49,804 we based our
     projections on. The remaining 35 employees’ underpayments represented 4 percent. Above we show
     $241,152 – 96 percent of the $251,200 [projected amount].
  •  We also show $10,048 – 4 percent of the $251,200 [projected amount].

  Administrative Fees
  • Administrative fees are 5 percent of the payment. The administrative fee assessed for the overcharge is $14,560
     (or 5 percent of $291,200). When paid, the administrative fee will be $12,560 (or 5 percent of the $251,200) for
     the underpayments.

  34
     Funds Put to Better Use – Funds that could have been used more efficiently if employees were paid the authorized
  amounts.
  35
     Unrecoverable Costs – Costs that should not have been incurred and are not recoverable.
  36
     Potential Additional Expense to the Postal Service – Costs not yet paid by the Postal Service, but could be in the
  future.

                                                             23
Office of Workers’ Compensation Programs’ Schedule                     HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II


                                         APPENDIX D

    STATISTICAL SAMPLING AND PROJECTIONS FOR REVIEW OF
    SCHEDULE AWARDS IN THE POSTAL SERVICE PACIFIC AREA

Purpose of the Sampling

One of the objectives of this audit was to assess whether schedule award payments
were correct. In support of this objective, the audit team evaluated payments for cases
selected in a stratified random sample. The sample design allows for projections of
both the number and dollar value of cases with overpayments or underpayments, as
well as the projection of the resulting amount that should have been paid (net amount).

Definition of the Audit Universe

The audit universe consisted of 1,082 cases that had at least one schedule award
payment in CBY 2004. We used PICS to generate the audit universe listing. The
payments for these 1,082 cases, from the start of each individual case through
December 6, 2004, constituted the total dollar universe for the audit. The total paid of
all schedule awards paid in CBY 2004 for the 1,082 cases was $20.6 million.

Sample Design

Our sample design included three strata based on the payment types observed for each
case in the CBY 2004 data: periodic payments only, supplemental payments only, or a
combination of both. We calculated the sample size for a 2-sided confidence interval, at
the 95 percent confidence level and ± 10 percent precision for the attribute (controls)
testing portion of the review. We had no prior knowledge of variability in error dollar
amounts on which to base a sample size calculation for the projection of the dollar
amount associated with the overpaid or underpaid cases.

                                   Number of Cases in       Number of Cases in
         Stratum                    Stratum Universe         Stratum Sample
 Periodic only                             636                     85
 Supplemental only                          20                     20
 Both                                      426                     80
  Total                                   1,082                    185

We applied the Microsoft Excel function “randbetween” to each case, by stratum, to
assign random numbers to the items on the universe listing and used those random
numbers to determine the cases included in the sample.




                                                 24
Office of Workers’ Compensation Programs’ Schedule                     HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II


Statistical Projections of the Sample Data

Methodology

For all projections, we applied methods described in Elementary Survey Sampling,
Scheaffer, Mendenhall, and Ott, c. 1990. To project the number of cases with
overpayments or underpayments in the audit universe, we analyzed the sample data
using the formulas to estimate population proportions for a stratified random sample.
To project the total dollars associated with cases that were overpaid or underpaid in the
audit universe, we used the formulas for direct projection of population means and totals
for a stratified random sample. We applied the text methods for difference estimation in
the calculation of the projected net value.

Of the 185 case files in our sample, six case files could not be provided because they
were at the OWCP National office. An additional 22 case files that were underpaid at
the time of our review showed that the period of award had not yet ended. For this total
of 28 cases, we treated the overpaid or underpaid amount as zero.

When counting the number of cases with overpayments or underpayments, we counted
the overpaid or underpaid amount as zero if it was less than $1.00.

All projections reported below are to the audit universe of 1,082 cases.

Results

Number of cases resulting in an overpayment
Based on projection of the sample results, we are 95 percent confident that 147 to
268 cases were overpaid (13.6 to 24.8 percent); the unbiased point estimate is that
208 cases (19.2 percent) were overpaid. Our achieved precision for this measure was
± 5.6 percent.

Average overpayment and total overpayment
Based on projection of the sample results, we are 90 percent confident that the average
overpayment per case was $269 and that the audit universe includes $216,913 to
$365,394 in total in overpayments (relative precision: ± 25.5 percent). The point
estimate of the total overpaid amount is $291,154. In the sample, the maximum
overpayment was $18,859.59.

Number of cases resulting in an underpayment
Based on projection of the sample results, we are 95 percent confident that 40 to
117 cases were underpaid (3.7 to 10.8 percent); the unbiased point estimate is that
79 cases (7.3 percent) were underpaid. Our achieved precision for this measure was
± 3.5 percent.




                                                 25
Office of Workers’ Compensation Programs’ Schedule                    HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II

Average underpayment and total underpayment
Based on projection of the sample results, we are 90 percent confident that the average
underpayment per case was $232 and that the audit universe includes $177,509 to
$324,896 in underpayments (relative precision: ± 29.3 percent). The point estimate of
the underpaid amount is $251,202. In the sample, the maximum underpayment was
$25,694.68.

Amount paid
Based on the sample results, we are 90 percent confident that the total amount due to
the injured employees was between $20.49 million and $20.71 million. The unbiased
point estimate is that $20.64 million should have been paid.

Number of cases resulting in either overpayments or underpayments
Based on projection of the sample results, we are 95 percent confident that 219 to
354 cases were overpaid or underpaid (20.3 to 32.7 percent); the unbiased point
estimate is that 287 cases (26.5 percent) were either overpaid or underpaid. Our
achieved precision for this measure was ± 6.2 percent.

Interpretation of Results

The results tell us that, in aggregate, the overpaid cases and the underpaid cases
tended to cancel each other out for the cases in CBY 2004. However, we noted from
the number of cases with overpayments or underpayments that some control risk may
not be considered insignificant: We estimated the percent of cases with overpayments
or underpayments at 26 percent. If similar error rates occur in other years, the amounts
overpaid and underpaid may not always cancel each other. Also, the projections
indicated that individuals associated with 26 percent of cases received erroneous
amounts for the CBY 2004 audit universe. Actual payment errors found in the sample
cases should be corrected.




                                                 26
Office of Workers’ Compensation Programs’ Schedule                                 HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II

Table of Instances of Net Overpayments or Underpayments in Cases Reviewed in the
Sample:

                      Net Case Underpayments             Net Case Overpayments
                        Observed in Sample                Observed in Sample:
                                     ($25,694.68)                     $18,859.59
                                     ($11,897.40)                      $9,684.00
                                      ($9,131.91)                      $4,802.00
                                        ($622.89)                       $468.91
                                        ($617.77)                       $447.69
                                        ($476.73)                       $420.74
                                        ($394.13)                       $400.83
                                        ($273.64)                       $391.39
                                        ($196.56)                       $318.94
                                        ($151.51)                       $311.58
                                        ($129.12)                       $288.69
                                        ($103.57)                       $285.40
                                         ($37.70)                       $277.41
                                         ($29.64)                       $252.63
                                         ($29.07)                       $250.32
                                         ($15.72)                       $245.18
                                                                        $235.44
                                                                        $229.93
                                                                        $229.37
                                                                        $214.33
                                                                        $207.05
                                                                        $190.26
                                                                        $184.91
                                                                        $180.95
                                                                        $174.77
                                                                        $172.83
                                                                        $129.04
                                                                        $127.14
                                                                          $92.48
                                                                          $85.50
                                                                          $83.12
                                                                          $78.91
                                                                          $34.83
                                                                          $17.53
                                                                          $11.52




                                                    27
Office of Workers’ Compensation Programs’ Schedule    HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II


                                         APPENDIX E

   COMPARISONS OF FECA SCHEDULE AWARDS TO STATES,
LONGSHORE ACT, BRITISH COLOMBIA, GUAM, MANITOBA, PUERTO
       RICO, SASKATCHEWAN, AND VIRGIN ISLANDS




                                                 28
Office of Workers’ Compensation Programs’ Schedule    HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II




                                                 29
Office of Workers’ Compensation Programs’ Schedule    HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II




                                                 30
Office of Workers’ Compensation Programs’ Schedule    HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II




                                                 31
Office of Workers’ Compensation Programs’ Schedule                                                HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II




Source: Excerpted from Analysis of Workers’ Compensation Laws 2005, prepared and published by the U.S. Chamber of
Commerce. The full report may be ordered at (800) 638-6582. Reprinted with permission.




                                                            32
Office of Workers’ Compensation Programs’ Schedule    HM-AR-05-011
 Award Payments to Postal Service Employees in the
 Pacific Area – Report II


               APPENDIX F. MANAGEMENT’S COMMENTS




                                                 33
